HHS/OIG, Audit -"Review of Title IV-E Training Costs in Maine for State
Fiscal Years 2001 Through 2003,"(A-01-03-02503)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Title IV-E Training Costs in Maine for State Fiscal Years 2001 Through 2003," (A-01-03-02503)
December 16, 2004
Complete
Text of Report is available in PDF format (248 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the State complied
with Office of Management and Budget (OMB) Circular A-87 and Administration for Children and Families (ACF) guidance
in claiming Federal reimbursement for costs for foster care and adoption assistance training.  The State did not
comply with OMB Circular A-87 and ACF guidelines.  Specifically, the State (1) did not allocate perservice training
costs between the Federal and State programs, (2) incorrectly calculated the Federal share of indirect costs, and (3)
inaccurately reported the amount claimed for Federal reimbursement.  As a result, the State misstated Federal claims
for training costs during State fiscal years 2001 through 2003.  Identified errors resulted in $4.3 million in overstatements
and $1.3 million in understatements, for a net Federal overstatement of $3 million.  We recommended a financial
adjustment for $3 million and procedural improvements.  The State concurred with our recommendations.